                                                     NA TIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A08040019                                                                           Page 1 of 1



                  The National Science Foundation (NSF) Office ofInspector General (OIG) conducted an
          inquiry into an allegation a PI l and a Co-pf included plagiarized materials in an NSF proposal. 3
          We examined other proposals and identified plagiarism in two of the PI's other proposals4 and in
          one of the Co-PI's other unfunded proposals. s We concluded there was sufficient evidence to
          proceed with an investigation.

                 We referred the ~atter to the University.6 The Univ~rsity concluded, based on a
          preponderance of the evidence, that the PI recklessly or knowingly committed plagiarism in 3
          NSF proposals and 3 published articles, and that the Co-PI recklessly committed plagiarism in 2 I,
          NSF proposals, both of which it deemed significant departures from accepted practices. The
          University took actions against both the PI and Co-PI.

                  We accepted the University's Report and its evidentiary record. We recommended no
          further action be taken against the Co-PI. We concluded, based on a preponderance of the
          evidence, that the PI knowingly committed plagiarism in three proposals, deemed a significant
          departure from accepted practices.

                   We recommended NSF make a finding of research misconduct against the PI; send the PI a
          letter of reprimand; require certifications from the PI for 1 year; require the PI provide OIG materials
          developed for University-imposed presentation on research ethics; and require certification of
          attending an ethics class within 1 year. The Deputy Director concurred with our recommendations.
          The Subject did not appeal the Deputy Director's decision.

                  This memo, the attached Report oflnvestigation, and the Deputy Director's letter constitute
          the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (\ 1102)
CONFIDENTIAL                                                                             CONFIDENTIAL




      National Science Foundation
        Office of Inspector General




                         Confidential
                                        "
                    Report of Investigation
                   Case Number A08040019


                            25 September 2009



 This Confidential Report of Investigation is the property of the NSF OIG and may be disclosed outside
      NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.c.§§ 552, 552a .
                        .


                                                                                   NSF OIG Form 22b (11/06)
CONFIDENTIAL                                                                       CONFIDENTIAL


                                       Executive Summary

Allegation:       Plagiarism.

OIG Inquiry:      DIG identified 24 lines of text copied by the PI and co-PI into a proposal. In
                  addition, we found the PI copied 58 lines of text into 2 additional proposals and
                  the co-PI copied nine lines of text into 1 additional proposal.
University
Investigation
and Action:       The Committee's Report concluded, based on a preponderance' of the evidence,
                  that the PI recklessly or knowingly committed plagiarism in 3 NSF proposals and
                  3 published articles, which it deemed a significant departure fro~ accepted
                  practices.

                  The Committee's Report concluded, based on a preponderance of the evidence,
                  that the Co-PI recklessly committed plagiarism in 2 NSF proposals, which it
                  deemed a significant departure from accepted practices.

                  The Deciding Official imposed the following actions on the PI: 1) The PI must
                  notifY collaborators for the articles containing plagiarism and inform the RIO that
                  this has been done within one month; 2) The PI must notifY journal editors of tne
                  articles containing plagiarism and inform the RIO that this has been done within
                  one month; 3) The PI must certifY that grant proposals and reports sent to any
                  federal entity not contain plagiarism for 2 years; 4) The PI must complete an on-
                  line ethics course and provide certificates of completion to the RIO within 3
                  months; and 5) The PI must develop and conduct a presentation on research
                  ethics.

                  The Deciding Official imposed the following actions on the Co-PI: 1) The Co-PI
                  must certifY that grant proposals and reports sent to any federal entity not contain
                  plagiarism for 2 years; 2) The Co-PI must complete an on-line ethics course and
                  provide certificates of completion to the RIO within 3 months; and 3) The Co-PI
                  must develop and conduct a presentation on research ethics.


OIG Assessment:      DIG concurs with University assessment.

                     No further action will be taken against the Co-PI; University-imposed actions
                     adequately protect the Federal interest.

                      In regard to the PI, DIG concludes:
                          • The Act: The PI committed plagiarism by copying 69 lines of text
                              from 10 sources into 3 unfunded proposals.
                          • Intent: The PI acted knowingly.
                          • Standard of Proof: A preponderance of the evidence supports the
                              conclusion that the PI committed plagiarism.



                                                  1
CONFIDENTIAL                                                             CONFIDENTIAL


                  •   Significant Departure: The PI's plagiarism represents a significant
                      departure from accepted practices.
                  •   Pattern: Three other articles by the PI contain plagiarism.

OIG Recommends:
                  •   Make a finding of research misconduct against the PI.
                  •   Send the PI a letter of reprimand.
                  •   Require certifications from the PI for a period of 1 year.
                  •   Require the PI send 010 all materials developed for the University-
                      imposed presentation on research ethics.
                  •   Require certification of completion of a course in research ethics
                      within a year.




                                         2
CONFIDENTIAL                                                                                             CONFIDENTIAL

                                                       OIG's Inquiry

        The National Science Foundation (NSF) Office ofInspector General (OIG) received an
                    I           2
allegation that a PI and a Co-PI (Subjects) included plagiarized materials in their NSF proposal
(Proposal 1\ Our analysis identified approximately 24 lines and five embedded references
allegedly copied from two sources (Source A and B).4 The potentially plagiarized text appeared in
sections that implied they were authored by the Subjects rather than collaborators.

        Our office examined additional proposals by the Subjects. We identified potential
plagiarism in two of the PI's other unfunded proposals (Proposa12 and Proposal 3)5 and in one of
the Co-PI's other unfunded proposals (Proposal 4).6 Proposal 2 contained 30 lines and two
embedded references potentially plagiarized from five sources; Proposal 3 contained 22 lines and
one embedded reference potentially plagiarized from 4 sources; and Proposal 4 contained only 8
lines potentially plagiarized from one source.

       OIG contacted the Subjects individually about the allegations. 7 Each provided his own
         s
response. The PI stated he was not responsible for the material in Proposal 1 allegedly plagiarized
from Source B.9 He classified the remaining 11 lines of copied text from Source A into three
categories:

                     First, sentences copied into introductory or motivational sections of a
                     proposal. Second, in the descriptions of previous research germane to the
                     current proposed work that used the language of the original reference.
                     Third, in the area of pedagogical strategies that reference a book on [ ]10
                     and use excerpts to describe this teaching strategy that are copied from the
                     book. I I

The PI describes the first category as "the most egregious error;" the second category as "more
difficult for me to discern as plagiarism, in that I am reporting results from referenced papers and ,
need to state the results of these previous works;" and the third category as "I thought this was also
alright since it has nothing to do with the proposed research.,,12 Nonetheless, the PI acknowledges




           contams our inquiry letters to the PI and Co-PIs.
8    Tab 8 contains the PI's and Tab 9 contains the co-prs individual responses to our inquiry letter.
9~
10~
II   Tab 8, pg 2.
12   Tab 8, pg 2.

                                                               3
CONFIDENTIAL                                                                            CONFIDENTIAL'


"In all three cases I made mistakes in not distinguishing this material from my own, I see that
now.,,13 He concluded:

               In none of these cases of copied material was I trying to misrepresent
               scientific work as my own, my errors were in stating motivations or
               summarizing published work'!lsing other peoples [sic] wording. I also did
               not realize that the same rules for published articles applied to proposals,
               but this ignorance is no excuse. 14

       The Co-PI informed us in his response that he was responsible for the l3 lines of copied text
from Source B that appeared in Proposal} and explained "my gut feeling is I grapped [sic] the
incorrect Endnote file and simply formatted it in haste.,,15 Regarding Proposal 4, the Co-PI said our
Source C was not the source he used, provided us with his source, and said, "I know for certain that
I messed this up during format[t]ing .... ,,16 In general, the Co-PI stated:

               There is no question that I did not properly cite in these instances, simple
               as that, and I will not try to hide this fact. I did not intentionally plagiarize
               however, and I hope you can see this as I did reference all the statements
               at issue. . .. [T]hus I was not attempting to take credit for the statements,
               but needless to say I did credit the wrong authors. I should mention that
               this is my fault and responsibility, not my co-PI [ ].17

The Co-PI attributed his errors to his many responsibilities last year and his reliance on Endnote.1~

        OIG determined the PI's responses did not dispel the allegation because OIG does not
distinguish between proposal sections containing allegedly copied text. OIG considers text copied
verbatim from a source text without quotations or a reference to the source, into any section of a
proposal, to be plagiarism. OIG also determined the Co-PI's responses did not dispel the allegation
because he did not produce earlier drafts corroborating his claims, and the embedded references
appeared copied along with the allegedly plagiarized text.

       OIG re-reviewed the Subjects' proposals in light oftheir respective responses. 19 The
following chart summarizes the total allegedly copied text in the four proposals:



                                                                                                   )




13 Tab 8, pg 2.
14 Tab 8, pg 3.
15 Tab 9.
16 Tab 9.
1 7 _ h e P I . Tab 9.
18 Tab 9.
19 Tabs 10 and 11.



                                                    4
CONFIDENTIAL                                                                                    CONFIDENTIAL


   Source       Proposal!               Proposal 2         Proposal 3        Proposal 4                               I
   Documents    (PI and Co-PI)          (PI)               (PI)              (Co-PI)
  iA            11 lines
                13 lines
                5 embedded
      B         references
          L                             4 lines
                                        1 embedded
      C                                 reference
                                                .                            9 lines
                                                                             2 embedded
  12c                                                                        references
  !   D                                 3 lines
      E                                 3 lines
                                        8 lines
                                        1 embedded
      F                                 reference
      G                                 12 lines           6 lines
                                                           2 lines
                                                           1 embedded
      H                                                    reference
      I                                                    11 lines
      J                                                    6 lines
      K                                                    3 lines
                                        30 lines           28 lines and 1                          69 lines
      Total                             2 embedded         embedded                                3 embedded
      PI        11 lines                references         reference                               references
                13 lines                                                     9 lines               22 lines
      Total     5 embedded                                                   2 embedded            7 embedded
      Co-PI     references                                                   references            references

We concluded there was sufficient evidence to proceed with an investigation, and referred the
matter to the University.2o


                                 University Inquiry and Investigation

        Consistent with University policy,21 the Research Integrity Officer (RIO)22 appointed an
Investigation Committee (Committee). The Committee reviewed the allegations against the PI and
Co-PI as individual investigations and produced separate investigation reports (Reports 1 and 2).

        The Committee examined documents NSF provided and others it identified; reviewed the
Subjects' written statements; interviewed the Subjects; and conducted searches for materials related
to plagiarism the Subjects might have had available.

       The Committee sought our assistance in examining for plagiarism the five most relevant
publications the Subjects listed on their biographical sketches for each proposal being examined.
OIG examined their five most relevant and five most significant publications. We identified four PI

                       Tab 12 contains the Investigation Referral Letter.

                                                                            also fully participated in the process.

                                                       5
CONFIDENTIAL                                                                                   CONFIDENTIAL


publications of potential concern and provided the University with annotated documents.23 The
four proposals combined contained 16 unique lines and 9 embedded references potentially
plagiarized from four sources. There was no potential concern identified in any of the Co-PI
publications.

       During the investigation, the RIO informed OIG the Subjects had a pending NSF proposae 4
recommended for funding and similar in topic to Proposal 1. We examined the document and
determined the Subjects did not include any plagiarized text.

        In Report 1, the Committee found, by a preponderance of the evidence, that the PI recklessly
or knowingly plagiarized, which it deemed a significant departure from accepted practices of the
academic community.25 The Committee concluded 19 of the 24 01 G-annotated passages "met the
definition of plagiarism.,,26 This determination was "based on the similarity between passages in                I


the proposals and those in the NSF-identified source documents, and the absence of standard
notation for indicating materials copied from other sources, such as references to the source
materials, and quotation marks or indentation.,,27 However, the Committee members wrote "we do
not believe that [the PI] attempted to knowingly deceive NSF, but do believe that he knowingly or
recklessly plagiarized the work of other professionals.,,28
                                                                                 .                               F
       The Committee determined the act was a significant departure from accepted practices by:,
reviewing the academic discipline's style book29 which states:

                 Every scientific publication must include the proper attribution of the
                 contribution of others by appropriate referencing ....

                 The introduction and discussion sections of a manuscript should be
                 absolutely clear as to what the work of others has contributed.

                 Direct quotations of more than a few words should be indicated by
                 quotation marks and referenced.

                 Plagiarism taking the writings or ideas of another and passing them off
                 as one's own - of any type represents unethical conduct,3o

However, the PI said "he was not aware of specific guidelines for plagiarism in t h e _
community,,,3l and "had not received much guidance throughout his career on ethics in writing.,,32


23 Tab 14. We provide the Committee with only the annotated materials (Articles 1-4 and Sources AA-DD) and left it
to the Committee to        its own         of the documents.
24 Tab 15                                                                           " The proposal is pending.
25 Tab 16, pg 4.                            .~.
26 Tab 16, pg 5.
2? Tab 16, pg 4.
28
29

30 Tab I ,pg
31 Tab 16, pg II. The PI said he uses Writing Successful Science Proposals (Friedland, A.I and C. L Folt Yale
University Press, New Haven, Conn.).
32 Tab 16, pg 12.



                                                         6
CONFIDENTIAL                                                                                       CONFIDENTIAL


        Of the additional materials the Committee requested OIG examine, it found "only 3 revealed
text that was very similar or identical to another source" 33 and it determined "these findings suggest
that [the PIJ's actions are part of a pattern of behavior that has extended to other professional
documents.,,34 However, it determined the PI's actions did not have a significant impact on the
research record. 35

        In Report 2, the Committee found, by a preponderance of the evidence, that the Co-PI
recklessly plagiarized, which it deemed a significant departure from accepted practices of the
academic community.36 The Committee used the same criteria as in Report 1 to define plagiarism
and determine accepted practices. The Committee wrote that its members

                   accept his contention that the absence of citation was not intentional on his
                   part. That does not make it acceptable conduct; authors have a
                   responsibility to exercise proper diligence in the preparation of proposals
                   and manuscripts. We believe that the failure to notice that such important
                   references were not cited constituted recklessness. 37

The Committee did not identify a pattern or determine his actions impacted the research record. 38


                                 Subjects' Response to Investigation Reports

          The University provided the PI with Report 1 for review and comment. 39 The PI reiterated

                   I admit mistakes were made in referencing material in three NSF
                   proposals .... However, there is no demonstrated intent to mislead the
                   reader that this work is my own, only poor scholarship in not fully re-
                   writing excerpts in my own words ... ,40

He concluded the case "taught me valuable lessons that I will now apply to the rest of my career.,,41

          The University similarly provided the Co-PI with Report 2.42 The Co-PI wrote

                   After reading the Committee's Report, I can agree with their conclusions
                   and their statement that this is a situation in which a fine line between
                   careless and reckless exists. I completely understand that it is my




33 Tab   16, pg 12.
34 Tab   16, pg 13. The Committee determined the PI plagiarized only 9 lines and 1 embedded reference within 3 articles.
35 Tab   16, pg 14.
36 Tab   17, pg 4.
37 Tab   17, pg 7-8.
38 Tab   17, pg 8.
39 Tab   16,pg 15.
40 Tab   16, pg 16.
41 Tab   16, pg 16.
42 Tab   17, pg 9.

                                                            7
CONFIDENTIAL                                                                                    CONFIDENTIAL.


                 responsibility and duty to accurately reference the writing of others. In
                 these two examples, I obviously did not do this and this is unacceptable. 43


                                           University Adjudication

       The Deciding Official (DO)44 concurred with Report 1.45 The University imposed the
following actions:

             •   The PI must notify collaborators for the articles containing plagiarism and inform the
                 RI 0 that this has been done within one month;
             •   The PI must notify journal editors of the articles containing plagiarism and inform
                 the RIO that this has been done within one month;
             •   The PI must certify that grant proposals and reports sent to any federal entity not
                 contain plagiarism for 2 years;
             •   The PI must complete an on-line ethics course and provide certificates of completion
                 to the RIO within 3 months; and
             •   The PI must develop and conduct a presentation on research ethics. 46

        The DO also concurred with Report 2.47 The University imposed the following actions:

             •   The Co-PI mu~t certify that grant proposals and, reports sent to any federal entity not
                 contain plagiarism for 2 years;
             •   The Co-PI must complete an on-line ethics course and provide certificates of
                 completion to the RIO within 3 months; and
             •   The Co-PI must develop and conduct a presentation on research ethics. 48
                               J




                                               OIG's Assessment
                                                                                           49
       The University provided OIG with Reports 1 and 2 and their respective attachments. OIG
reviewed the reports and concludes the University followed reasonable procedures and produced                     an
accurate and complete body of evidence addressing the allegation. OIG thus accepts the
University's conclusions based on the reports in lieu of conducting our own investigation.

     We informed the Subjects we received the Reports and attachments, and invited them to
comment. 50 The P! stated "I fully agree to the sanctions actions stipulated in this Report ... ".~d




          ,pg 7.
46 Tab 16, pg 18-19.
47 Tab 17, pg 12.
48 Tab 17, pg 13-14.
49 Due to the volume of report attachments, we have not included them with the current ROJ. All attachments are
available for review in DIG.
50 Tab 18.



                                                          8
CONFIDENTIAL                                                                              CONFIDENTIAL


                   the [University] conducted a through [sic] and unbiased investigation of
                   the allegations and [I] agree with the outcome of the Report which should
                   ensure that the same mistakes are not repeated and that 1 use this
                   experience to make myself and others better aware of some of the ethical
                   pitfalls that one can fall victim to in the course of a research career. 1 take
                   this very seriously and do not want to tarnish or jeopardize my future
                   career and thus make a new commitment to act in the highest ethical
                   manner. 51

The Co-PI did not provide additional comment.

        OIG reviewed Report 2 and University-imposed actions relative to the limited amount of
material the Co-PI plagiarized. We determine the Federal interest is protected by University actions
already imposed, and recommend that no further action be taken ~gainst the Co-PI. The remainder
of the ROI will thus deal only with the PI (referred to hereafter as the Subject).

        A finding of research misconduct by NSF requires (1) there be a significant departure from
accepted practices of the relevant research community, (2) the research misconduct be committed
intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a preponderance of.
the evidence. 52

                                                        The Act

       The Subject plagiarized 69 lines and 3 embedded references from 10 sources53 within 3
declined NSF proposals. The Subject acknowledged he copied the material, stating he did not kno,w
including the text as he had was unacceptable.  '                                              .,

        OIG concurs with the Committee that the Subject significantly departed from the accepted
standards of the research community in presenting the copied text as his own work and words rather
than as text written by others.

                                   I Document     # lines             # of sources

                                    ProP~
                                    Proposal 2
                                                                 11
                                                                 30
                                                                                     1
                                                                                     5
                                    Proposal 3                  28                   5
                                    Article 1                   2.5                  1
                                    Article 3                    4                   1
                                    Article 4                   2.5                  1




51   Tab 19.
52   45 C.F.R. §689.2(c).
53   One source document contained text copied into Proposa12 and Proposal 3.

                                                            9
CONFIDENTIAL                                                                              CONFIDENTIAL




        OIG concludes the Subject acted knowingly. The Subject did not contest that he included
text and embedded references from source texts; he only contested whether citation was necessary
in many cases, a contention both OIG and the University rejected. Further, the inclusion of
embedded references indicates he copied the complete source text into his document and/or that he
knew the appropriated text required citation.

                                               Standard o(Proo(

       OIG concurs with the Committee that the Subject's actions and intent were proven based on
a preponderance of the evidence.

       OIG concludes the Subject, by a preponderance of the evidence, knowingly plagiarized,
thereby committing an act of research misconduct. 54


                                      OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

                    (1) How serious the misconduct was; (2) The degree to which the
                    misconduct was knowing, intentional, or reckless; (3) Whether it was an
                    isolated event or part of a pattern; (4) Whether it had a significant impact
                    on the research record, research subjects, other researchers, institutions or
                    the public welfare; and (5) Other relevant circumstances. 55

                                              Seriousness
        The PI's actions are a violation of the standards of scholarship and of the fundamental tenets
of research ethics. The extent of the plagiarism - approximately 69 lines and 3 embedded
references within 3 declined NSF proposals from 10 sources - is itself serious. However, we do
note that none of the proposals contained more than 30 lines of plagiarized text making this case
less serious than some our office has investigated.

                                 Degree to which Action was Knowing
        The act of plagiarism is generally an act done knowingly. The Subject acknowledged he
knew he copied text and embedded references into his proposals without attribution. The Subject
did not contest the finding that the material was copied without citation, but rather contested
whether the copied text required citation at all.

           The Grant Proposal Guide clearly articulates NSF's expectations.

                    NSF expects strict adherence to the rules of proper scholarship and
                    attribution. The responsibility for proper attribution and citation rests with

54
     45 C.F.R. part 689.
55   45 C.F.R. § 689.3(b).

                                                       10
CONFIDENTIAL                                                                                      CONFIDENTLi\L


                 authors of a proposal; all parts of the, proposal should be prepared with
                 equal care for this concern. Authors other than the PI (or any co-PI)
                 should be named and acknowledged. Serious failure to adhere to such
                 standards can result in findings of research misconduct. NSF policies and
                 rules on research misconduct are discussed in the AAG Chapter VII.C, as
                 well as in [45] CFR Part 689. 56

                                                       Pattern

       Additional plagiarism was identified in three other PI publications. OIG thus concludes the
       e




PI exhibited a pattern of plagiarism.


                                                Recommendation

Based on the evidence, OIG recommends that NSF:

             •   send a letter of reprimand to the Subject informing him that NSF has made a finding
                 of research misconduct;57                                                         .

             •   require the Subject to certify to OIG's Associate Inspector General for Investigations
                 (AlGI) that proposals or reports he submits to NSF do not contain plagiarized
                 material for 1 year from the date of the research misconduct finding;58

             •   require the Subject to send to OIG's AlGI copies of all materials developed for the
                 University-imposed presentation on research ethics; and

             •   Require certification of completion of a course in research ethics be submitted to
                 AlGI within a year of the research misconduct finding.



                                                                        j




56 GPG Section 1.D.3. (June 2007). An identical provision existed in the GPG in effect at the time the Subject
submitted the proposal.
57 A letter of reprimand is a Group I action (45 C.F.R. §689.3(a)(l)(i».
58 Certification by an individual is authorized in 45 C.F.R. §689.3(c).



                                                          11
                                   NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230



                                         JAN   ~ ~   2010

      OFFICE OF THE
     DEPUTY DIRECTOR




CERTIFIED l\1AlL--RETURN RECEIPT REQUESTED

-------




       Be: . Notice of Research MisCOlldllct Detel'Juiltatioll

DearDr._




            As doclUIlented in the attached Investigative Repolt         by NSF's '-' ......vv
Inspector General ("010"), these proposals contained plagiarized text and embedded references.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication) falsification,
or plagiarism in proposing or performing research funded by NSF ."J} 45 CFR § 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689. 1(a)(3). A finding of research misconduct
requires that:

       (l) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally> or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).
                                                                                              Page 2
        Your proposals contained verbatim and paraphrased text, as well as several embedded
references, copied from ten source documents. By submitting proposals to NSF that copied the
ideas or words of another without adequate attribution, as described in the OIG Investigative
Report, you misrepresented someone else's work as your own. Your conduct unquestionably
constitutes plagiarism. I therefore conclude that your actions meet the definition of "research
misconduct" set forth in NSF's regulations. ,

        Pursuant to NSF regulations, the Foundation must also detennine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CPR § 689.2( c). After
reviewing the hwestigative Report, NSF has detetmined that, based on a preponderance of the
evidence, your plagiarism was committed knowingly and constituted a significant depru1ure from
accepted practices of the relevant research community. I am, therefore, issuing a finding of
research misconduct against you.

         NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3( a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative celiity as to the accuracy of
reports or celiifications of compliance with particular requirements. 45 CFR § 689 .3(a)(I).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group m actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debannent
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3). '

        hi detennining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, our detennination that it was committed
knowingly, as well as our determination that it was part of a pattern. I have also considered the
fact that your misconduct had no impact on the research record, the fact that you displayed
contrition for your actions, as well as other relevant circumstances. 45 CFR § 689.3 (b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

       (1)     Until January 15,2011> you must provide certifications to the OIG that any
               proposal you submit to NSF as a PI or co-PI does not contain plagiarized material;

       (2)     By January 15, 2011, you must send to the OlG copies of all materials that you
               developed for the presentation on research ethics that the University required you
               to conduct for the University community; and

       (3)     By January 15, 2011, you must certify to the OIG that you co~pleted the research
               ethics training course that the University mandated you to complete.
                                                                                             Page 3

       All celtifications should be submitted in writing to DIG, Associate Inspector General for
hwestigations, 4201 Wilson Boulevard, Arlington; Virginia 22230.

Procedures Governing Appeals
         Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. Ifwe do not receive your appeal within the 30-day period) this
decision will become final.

       For your infonnation, we are attaching a copy of the applicable regulations. If you have
any questions about the foregoing, please call                                          at (703)
292-8060.        .


                                                     Sincerely,

                                                     ~ fir. \~
                                                     Cora B. Marrett
                                                     Acting Deputy Director




Enclosures
   Investigative Report
   45 C.F.R. Part 689
